APPENDIX A

United States Court of Appeals
for the Ninth Circuit
Memorandum Opinion
Steilman v. Michael, 2021 WL 2419681 (9th Cir. 2021)
Filed June 14, 2021

Case: 20-35103, 06/14/2021, ID: 12142911, DktEntry: 38-1, Page 1 of 5

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
JUN 14 2021
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
DERRICK E. STEILMAN,

No.

Petitioner-Appellant,

U.S. COURT OF APPEALS

20-35103

D.C. No. CV 19-38-BU-BMM
MEMORANDUM*

v.
REGINALD D. MICHAEL, Director,
Montana Department of Corrections;
TIMOTHY C. FOX, Montana Attorney
General,
Respondents-Appellees.

Appeal from the United States District Court
for the District of Montana
Brian M. Morris, District Judge, Presiding
Submitted June 10, 2021**
Seattle, Washington
Before: GILMAN***, GOULD, and MILLER, Circuit Judges.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes that this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).
***

The Honorable Ronald Lee Gilman, United States Circuit Judge for
the U.S. Court of Appeals for the Sixth Circuit, sitting by designation.
1a

Case: 20-35103, 06/14/2021, ID: 12142911, DktEntry: 38-1, Page 2 of 5

This case involves Derrick E. Steilman’s petition for habeas relief under 28
U.S.C. § 2254. Steilman filed a § 2254 petition challenging the legality of his
110-year-sentence without the possibility of parole for a Montana homicide that he
committed when he was 17 years old. The district court dismissed the petition as
untimely. We agree with the district court that Steilman’s petition was untimely
because he failed to seek relief within one year of the Supreme Court’s decision in
Miller v. Alabama, 567 U.S. 460 (2012), and because he is not entitled to equitable
tolling.
1. Shortly before turning 18, Steilman committed a murder in Butte,
Montana. He pleaded guilty in October 1999.
2. Steilman filed an earlier petition for a writ of habeas corpus in the
Montana Supreme Court in May 2016, wherein he claimed that his sentence was
unconstitutional under the Eighth Amendment because the sentencing judge did
not sufficiently account for his youth per the new rule announced in Miller and
made retroactive in Montgomery v. Louisiana, 577 U.S. 190 (2016). The Montana
Supreme Court held that “[t]he combination of the good-time credit to which
Steilman is eligible and the amount of his sentence that will be discharged while
serving a sentence on a wholly unrelated crime” meant that Steilman’s sentence
was not a de facto life sentence. Steilman v. Michael, 407 P.3d 313, 320 (Mont.
2017); see also Steilman v. Michael, No. CV 19-38-BU-BMM-KLD, 2019 WL

2a

Case: 20-35103, 06/14/2021, ID: 12142911, DktEntry: 38-1, Page 3 of 5

8017793, at *1 (D. Mont. Nov. 21, 2019), report and recommendation adopted in
part, rejected in part, No. CV 19-38-BU-BMM, 2020 WL 359212 (D. Mont. Jan.
22, 2020) (noting that the Montana Supreme Court “observed that Steilman’s
Montana sentence ran concurrently to a Washington state sentence for a separate
homicide, which would result in Steilman potentially serving [about] 31 years [for]
the Montana homicide.”).
3. We need not decide whether the Montana Supreme Court’s decision on
the merits was contrary to the United States Supreme Court’s decision in Miller
because Steilman’s federal habeas corpus petition was untimely. A state petition
for habeas corpus that is based upon the recognition of a new right must be filed
within one year of “the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly recognized by the
Supreme Court and made retroactively applicable to cases on collateral review.”
28 U.S.C. § 2244(d)(1)(C). Steilman filed his petition within one year of
Montgomery, but four years after the decision in Miller.
4. Unfortunately for Steilman, the decision that triggers the one-year statute
of limitations is Miller, not Montgomery. Miller recognized a new right under the
Eighth Amendment (the right to an individualized hearing for juvenile offenders
before they can be sentenced to life without parole). 567 U.S. at 480. The
Supreme Court’s recent decision in Jones v. Mississippi, 141 S. Ct. 1307 (2021),

3a

Case: 20-35103, 06/14/2021, ID: 12142911, DktEntry: 38-1, Page 4 of 5

reiterated that Montgomery simply held “that Miller applied retroactively to cases
on collateral review.” Id. at 1314; see also id. at 1316 (“Montgomery did not
purport to add to Miller’s requirements.”). Furthermore,
in making the [Miller] rule retroactive, the Montgomery Court . . .
declined to impose new requirements not already imposed by Miller.
As Montgomery itself explained, the Court granted certiorari in that
case not to consider whether the rule announced in Miller should be
expanded, but rather simply to decide whether Miller’s “holding is
retroactive to juvenile offenders whose convictions and sentences were
final when Miller was decided.”
Id. at 1317 (quoting Montgomery, 557 U.S. at 194). This leaves Steilman’s
timeliness argument based on Montgomery meritless because, as the Supreme
Court decided in Dodd v. United States, 545 U.S. 353, 357 (2005), the date that a
right is made retroactive is irrelevant for statute-of-limitations purposes.
5. Moreover, Steilman is not entitled to equitable tolling. His argument
turns on an unsubstantiated, vague allegation that “his attorney abandoned him and
gave him improper advice as to how much time he had remaining on the statute of
limitations.” He says that because he was “unable to present his claim to equitable
tolling in the district court[,] . . . [t]his Court should . . . reverse and remand this
case and give Steilman a chance to establish that he is entitled to equitable tolling.”
6. But equitable tolling of the one-year limitations period created by 28
U.S.C. § 2244(d)(1)(C) is rarely granted. Miranda v. Castro, 292 F.3d 1063,
1066–67 (9th Cir. 2002). To benefit from equitable tolling, a petitioner must show

4a

Case: 20-35103, 06/14/2021, ID: 12142911, DktEntry: 38-1, Page 5 of 5

that he has “pursu[ed] his rights diligently” and was hindered by an “extraordinary
circumstance.” Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005). Before the
district court, Steilman proffered several reasons for equitable tolling, including
attorney malpractice, legal ignorance, and insufficient access to Montana legal
materials while incarcerated in the state of Washington. Steilman, 2019 WL
8017793, at *3–4.
7. Although Steilman put forth several reasons before the district court in
attempting to establish an “extraordinary circumstance,” he proffers on appeal only
that his attorney misadvised and “abandoned him.” But Steilman provides no
evidence to substantiate his argument, and this single reason does not constitute an
“extraordinary circumstance.” See Frye v. Hickman, 273 F.3d 1144, 1145–46 (9th
Cir. 2001) (holding that counsel’s general negligence did not warrant equitable
tolling); see also Ford v. Pliler, 590 F.3d 782, 786 (9th Cir. 2009) (noting that the
petitioner had given the lower court no evidence that an “attorney’s conduct had
made it impossible . . . to file a timely federal habeas petition”). In any event, the
attorney misconduct that Steilman alleges apparently occurred after the statute of
limitations had already lapsed, so it could not change the result in this case. See
Ferguson v. Palmateer, 321 F.3d 820, 823 (9th Cir. 2003).
AFFIRMED.

5a

APPENDIX B
United States District Court, District of Montana
Order Adopted, In Part, and Denied, In Part; and Certificate of Appealability Granted
Steilman v. Michael, 2020 WL 359212 (D.Mont. 2020)
Filed January 22, 2020

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
BUTTE DIVISION
DERRICK E. STEILMAN,
Petitioner,

CV 19-38-BU-BMM

vs.
REGINALD D. MICHAEL;
ATTORNEY GENERAL OF THE
STATE OF MONTANA,

ORDER

Defendant.

Petitioner Derrick E. Steilman applied for writ of habeas corpus under 28
U.S.C. § 2254 on July 30, 2019. (Doc. 1.) United States Magistrate Judge Kathleen
L. DeSoto issued her Findings and Recommendations on November 21, 2019.
(Doc. 8.) Judge DeSoto recommends that the Court dismiss Steilman’s Petition as
time-barred without excuse. (Id. at 9.) Judge DeSoto found that Steilman’s petition
is time-barred because Steilman failed to file his petition for writ of habeas corpus
within one year of the Supreme Court’s decision Miller v. Alabama, 567 U.S. 460
(2012). (Id. at 4.) Steilman filed an objection to Judge DeSoto’s Findings and
Recommendations on December 26, 2019. (Doc. 11.)

1

1b

The Court reviews de novo those Findings and Recommendations to which a
party timely objected. 28 U.S.C. § 636(b)(1). The Court reviews for clear error the
portions of the Findings and Recommendations to which the party did not
specifically object. McDonnell Douglas Corp. v. Commodore Bus. Mach., Inc.,
656 F.2d 1309, 1313 (9th Cir. 1981). Where a party’s objections constitute
perfunctory responses argued in an attempt to engage the district court in a
reargument of the same arguments set forth in the original response, however, the
Court will review the applicable portions of the Findings and Recommendations
for clear error. Rosling v. Kirkegard, 2014 WL 693315 *3 (D. Mont. Feb. 21,
2014) (internal citations omitted).
Steilman objects to Judge DeSoto’s conclusion that the time period for him
to file his petition began when the Supreme Court decided Miller. (Doc. 11 at 5, 79.) Steilman argues that the time period for him to file his petition began on
January 25, 2016, when the Supreme Court decided Montgomery v. Louisiana, 136
S. Ct. 718 (2016). (Id.) Steilman further objects to Jude DeSoto’s conclusion that
equitable considerations did not toll the statute of limitations. (Id. at 9-14.)
Steilman advances the same arguments he made in his Petition. Judge
DeSoto considered those arguments in making her recommendation to the Court.
The Court finds no specific objections that do not attempt to relitigate the same
2

2b

arguments and will review Judge DeSoto’s Findings and Recommendations for
clear error. See Rosling, 2014 WL 693315 at *3. The Court finds no error.
Steilman objects to Judge DeSoto’s recommendation to deny Steilman a
certificate of appealability. (Doc. 11 at 18-19.) “The district court must issue or
deny a certificate of appealability when it enters a final order adverse to the
applicant.” Rule 11(a), Rules Governing § 2255 Proceedings. A certificate of
appealability should issue as to those claims on which the petitioner makes a
“substantial showing of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c)(2). The standard is satisfied if “jurists of reason could disagree with the
district court’s resolution of [the] constitutional claims” or “conclude the issues
presented are adequate to deserve encouragement to proceed further.” Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003) (citing Slack v. McDaniel, 529 U.S. 473, 484
(2000)).
The Court has found no clear error in Judge DeSoto’s findings that
Steilman’s petition is procedurally barred. The Court will grant a Steilman a
certificate of appealability, however, if Steilman chooses to appeal this Court’s
decision in this Order. Steilman must file a notice of appeal within 60 days and
may then move the Ninth Circuit to appoint new counsel to represent him.

3

3b

Accordingly, IT IS ORDERED as follows:
1.

Judge DeSoto’s Findings and Recommendations (Doc. 8) are

ADOPTED, IN PART, and DENIED, IN PART.
2.

Steilman’s Petition (Doc. 1) is DISMISSED WITH PREJUDICE as

time-barred without excuse.
3.

The Clerk of Court shall ensure that all pending motions in this case

are terminated and shall close the civil file by entering a judgment of dismissal in
favor of Respondents and against Petitioner.
4.

A certificate of appealability is GRANTED. The Clerk of Court shall

immediately process the appeal if Steilman files a Notice of Appeal.
DATED this 22nd day of January, 2020.

4

4b

APPENDIX C
United States District Court, District of Montana
Finding and Recommendation of United States Magistrate Judge
Steilman v. Michael, 2019 WL 8017793 (D.Mont. 2019)
Filed November 21, 2019

1c

2c

3c

4c

5c

6c

7c

8c

9c

